<html>
<title> - [H.A.S.C. No. 115-9]U.S. GROUND FORCE CAPABILITY AND MODERNIZATION CHALLENGES IN EASTERN EUROPE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                          [H.A.S.C. No. 115-9]
 
                    U.S. GROUND FORCE CAPABILITY AND

                        MODERNIZATION CHALLENGES

                           IN EASTERN EUROPE

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 1, 2017

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 



                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
24-681 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="395e4956795a4c4a4d515c5549175a565417">[email&#160;protected]</a> 


  


              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                   MICHAEL R. TURNER, Ohio, Chairman

FRANK A. LoBIONDO, New Jersey        NIKI TSONGAS, Massachusetts
PAUL COOK, California, Vice Chair    JAMES R. LANGEVIN, Rhode Island
SAM GRAVES, Missouri                 JIM COOPER, Tennessee
MARTHA McSALLY, Arizona              MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           RUBEN GALLEGO, Arizona
TRENT KELLY, Mississippi             JACKY ROSEN, Nevada
MATT GAETZ, Florida                  SALUD O. CARBAJAL, California
DON BACON, Nebraska                  ANTHONY G. BROWN, Maryland
JIM BANKS, Indiana                   TOM O'HALLERAN, Arizona
WALTER B. JONES, North Carolina      THOMAS R. SUOZZI, New York
ROB BISHOP, Utah                     (Vacancy)
ROBERT J. WITTMAN, Virginia
MO BROOKS, Alabama
               Jesse Tolleson, Professional Staff Member
                  Doug Bush, Professional Staff Member
                          Neve Schadler, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Tsongas, Hon. Niki, a Representative from Massachusetts, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     3
Turner, Hon. Michael R., a Representative from Ohio, Chairman, 
  Subcommittee on Tactical Air and Land Forces...................     1

                               WITNESSES

Bonds, Timothy M., Vice President, RAND Army Research Division, 
  Director, RAND Arroyo Center...................................     5
Hunter, Andrew P., Director, Defense-Industrial Initiatives 
  Group, Senior Fellow, International Security Program, Center 
  for Strategic and International Studies........................     7
Shlapak, David A., Senior International Research Analyst, 
  Codirector, Center for Gaming, RAND Corporation................     3

                                APPENDIX

Prepared Statements:

    Bonds, Timothy M.............................................    45
    Hunter, Andrew P.............................................    74
    Shlapak, David A.............................................    35
    Turner, Hon. Michael R.......................................    33

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Langevin.................................................    87
    Ms. Rosen....................................................    89
 
 
 U.S. GROUND FORCE CAPABILITY AND MODERNIZATION CHALLENGES IN EASTERN 
                                 EUROPE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                          Washington, DC, Wednesday, March 1, 2017.
    The subcommittee met, pursuant to call, at 3:41 p.m., in 
room 2212, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MICHAEL R. TURNER, A REPRESENTATIVE 
  FROM OHIO, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Turner. The hearing will now come to order. Today we 
will receive testimony on the operational and strategic 
challenges facing the United States and NATO forces in 
deterring, as well as responding to, Russian aggression on the 
North Atlantic Treaty Organization's eastern flank, or NATO.
    I would like to welcome our distinguished panel. Mr. David 
A. Shlapak, Senior International Research Analyst and 
Codirector, Center for Gaming, RAND Corporation. And by gaming 
we don't mean Vegas. We mean modeling, which I am not 
criticizing.
    Mr. Timothy M. Bonds, Vice President, Army Research 
Division, and Director, RAND Arroyo Center.
    Mr. Andrew P. Hunter, Director of Defense-Industrial 
Initiatives Group and Senior Fellow, International Security 
Program for the Center for Strategic and International Studies 
[CSIS].
    Beginning with the invasion of Crimea in 2014, followed by 
incursions into East Ukraine, Russia continues to take 
aggressive actions in overturning European security. The 
Chairman of the Joint Chiefs of Staff, General Joseph Dunford, 
has stated that, quote, ``Russia presents the greatest threat 
to our national security'' and that, quote, [what] ``they seek 
to do is to undermine credibility of our ability to meet our 
alliance commitments to NATO.''
    Reported just last week, a Russian intelligence collection 
ship was operating off the east coast of the United States. 
Russian military aircraft have made high-speed passes over U.S. 
naval ships operating in the Black Sea, and recent media 
reports indicate Russia has operationally deployed a new ground 
launch cruise missile that violates the Intermediate Range 
Nuclear Forces Treaty and directly threatens our NATO allies.
    Secretary Mattis and Vice President Pence have reaffirmed 
the United States commitment to NATO, and have also made it 
clear that Russia would be held accountable for its actions.
    As the former president of the NATO Parliamentary Assembly 
[PA] and current head of the U.S. delegation to the NATO PA, I 
am in agreement with the Secretary and the Vice President's 
position. NATO's first goal is to prevent conflict. And highly 
ready forward-deployed military forces contribute to this by 
deterring conventional conflict.
    Actions have been taken by NATO in response to this 
continued Russian aggression. For example, at the Wales Summit, 
NATO heads of state established a readiness action plan and 
stood up an enhanced NATO response force.
    The United States remains fully prepared to meet Article 5 
commitments to NATO allies. However, if we are to rebuild a 
credible deterrent posture in Europe, the NATO nations also 
need to meet their agreed-upon goal of spending 2 percent of 
gross domestic product on defense. Only five nations today do 
so.
    Despite taking these actions, a major challenge for the 
U.S. and NATO continues to be reestablishing a credible forward 
presence of ready military forces. The previous 
administration's strategy in Europe assumed that a small 
forward-deployed presence, augmented by a small rotational 
force, would provide a credible deterrent. That assumption has 
been proven wrong.
    So reviewing our current force structure in Europe is an 
excellent place to start for understanding current gaps in the 
capability and capacity of our ground forces, and can be 
applied to ground forces writ large.
    Besides the broader strategic policy implications of 
reassuring members of the NATO alliance, the witnesses today 
are prepared to discuss what is required by our ground forces 
from a modernization perspective in the near term to improve 
force posture and mitigate potential threats posed by Russia.
    Of special interest to the subcommittee today are the 
findings and observations from the most recent RAND War Game 
Report 2016 on the Defense of the Baltics entitled, quote, 
``Reinforcing Deterrence on NATO's Eastern Flank.'' That raised 
alarming concerns regarding current U.S. and NATO military 
posture in Europe.
    The European Reassurance Initiative and multilateral 
training exercises like Operation Atlantic Resolve have been 
good first steps in improving forward presence in Europe and 
reassuring our allies. However, the reality is that more 
resources and actions are needed. Given the threats posed by 
Russian aggression, we need to move from a posture of 
reassurance to a posture of deterrence; credible deterrence.
    Finally, I want to close with a quote from Lieutenant 
General John W. Nicholson, the former commander of NATO's 
Allied Land Command. Quote: ``Military readiness costs money, 
but the costs of readiness pale in comparison to the human and 
material costs of war.''
    Before we begin, I would like to go to my good friend and 
colleague from Massachusetts, Niki Tsongas, for her comments.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 33.]

     STATEMENT OF HON. NIKI TSONGAS, A REPRESENTATIVE FROM 
MASSACHUSETTS, RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND 
                          LAND FORCES

    Ms. Tsongas. Thank you, Mr. Chairman, and good afternoon 
and I want to welcome our witnesses and look forward to hearing 
from you.
    As the United States confronts Western aggression in 
Eastern Europe, it underscores the importance of the NATO 
alliance, what Secretary of Defense Mattis has called, quote, 
``our strongest bulwark against instability and violence,'' 
unquote. It is also prompts us to assess NATO's current 
capabilities to credibly deter further Russian aggression, and 
to examine what additional investments the United States should 
or must make with our NATO allies. Keeping in mind, however, 
our ongoing fiscal constraints and a number of emerging and 
growing and threats across the globe that are also top of mind.
    In that context, today's hearings are quite relevant, and I 
look forward to your testimony. And with that I yield back.
    Mr. Turner. Thank you. Without objection, all witnesses' 
prepared statements will be included in the hearing record. We 
will begin with Mr. Shlapak, followed by Mr. Bonds; and then 
Mr. Hunter. Mr. Shlapak.

 STATEMENT OF DAVID A. SHLAPAK, SENIOR INTERNATIONAL RESEARCH 
    ANALYST, CODIRECTOR, CENTER FOR GAMING, RAND CORPORATION

    Mr. Shlapak. Thank you.
    Chairman Turner, Ranking Member Tsongas, members of the 
committee, I am honored by this opportunity to testify before 
you on this important topic.
    The re-emergence of Russia as a disruptive force in global 
security is an event of historic significance, and RAND has 
been at work seeking to understand its implications since 
Russia's annexation of Crimea unambiguously signaled its 
willingness to use force to revise the European security order. 
Among the first questions we asked was does this more assertive 
Russia pose a renewed military threat to NATO? I wish to be as 
clear and direct as our findings allow me to be. NATO is not 
postured or prepared to defend its most exposed and vulnerable 
member states, the Baltic Republics of Estonia, Latvia, and 
Lithuania, against a Russian attack.
    In a series of war games conducted over the past 3 years, a 
short-warning Russian invasion of the Baltic States--and this 
is an entirely plausible scenario--one conducted in a way that 
allows NATO only about a week of warning, has consistently 
resulted in the catastrophic collapse of NATO's defenses within 
36 to 60 hours of the onset of hostilities. Such an operational 
defeat would leave the U.S. President and his Canadian and 
European counterparts with only bad strategic choices: build up 
forces and launch a bloody and costly counteroffensive, risking 
Russian nuclear escalation; escalate to the use of nuclear 
weapons themselves; or accept the Russian fait accompli, 
thereby conceding NATO's utter failure to carry out its 
founding mission, which is to guarantee the territorial 
integrity and political independence of its member states.
    Now whether or not NATO survives such a disaster, the 
Eurasian security order would be transformed in a way utterly 
contrary to American interests, and the United States 
credibility and reliability as an ally would almost certainly 
be called into question globally.
    Fortunately, our work also indicates that avoiding this 
outcome and restoring a credible conventional deterrent along 
NATO's eastern frontier is both doable and affordable. A force 
of approximately seven NATO brigades ready to fight at the 
outset of hostilities, and supported by artillery and airpower, 
as well as proper logistical support, and command and control, 
appears sufficient to deny Russia a rapid victory.
    With the prospect of inflicting a quick one-sided and 
devastating strategic defeat on its most threatening adversary 
off the table, the temptation for Moscow to attack the Baltics 
under even the most inviting or stressful circumstances would 
be greatly reduced. Deterrence would be enhanced.
    Now key to the success of the seven brigade defending force 
is the incorporation of three heavy brigades, units equipped 
with tanks, infantry fighting vehicles, self-propelled 
artillery, and so on. Because these forces must be on the 
ground and ready to fight on D-Day, and are difficult to move 
across long distances, it would likely prove impossible to 
deploy them from the United States during a crisis, even if 
their equipment were prepositioned in Europe.
    Questions remain to be addressed regarding the risks and 
benefits of various options for posturing these forces, but I 
believe that some form of forward basing of the heavy brigades, 
permanently stationing them in central or northeastern Europe, 
will prove necessary to have a sufficiently reliable, 
responsive, and robust deterrent.
    Now to be clear, these seven brigades will require 
substantial reinforcements from both our NATO allies and 
ourselves in order to sustain the defense, and if necessary, 
eject the Russians from whatever territory they may come to 
occupy. This topic is addressed in greater detail in my written 
testimony.
    It is vital to recognize that ultimately the success or 
failure of NATO in the Baltics is not just about the fate of 
three countries with the combined population of Missouri or 
collective economy the size of Iowa's. Instead it is about 
deterring, about preventing a conflict with the only country on 
earth that has the capacity to destroy the United States as a 
modern functioning society. Conflict with Russia must always be 
contemplated with full awareness of its consequences, not just 
for the people of Estonia or Latvia or Lithuania, but for those 
of Ohio, Massachusetts, Arizona, California, and every other 
citizen of the United States.
    Let's look at this for a moment from a historical point of 
view. For 70 years, every administration and every Congress, on 
a bipartisan basis, has recognized the importance of a free, 
prosperous, and vital Europe to the safety and prosperity of 
our own Nation.
    Since the fall of the Berlin Wall, we have enjoyed a 
respite from worrying about the basic security of the European 
order. That respite, ladies and gentlemen, is over. The United 
States and its allies are challenged once again from the east. 
We don't get to control that. It is happening. What is in our 
hands, what is in your hands, is how we respond.
    I thank you for your time and your attention and look 
forward to your questions.
    [The prepared statement of Mr. Shlapak can be found in the 
Appendix on page 35.]
    Mr. Turner. Mr. Bonds.

   STATEMENT OF TIMOTHY M. BONDS, VICE PRESIDENT, RAND ARMY 
        RESEARCH DIVISION, DIRECTOR, RAND ARROYO CENTER

    Mr. Bonds. Thank you, Chairman Turner, Ranking Member 
Tsongas, and members, for inviting me to speak with you today. 
It is an honor to be here.
    As my colleague Dave Shlapak has just described the 
capabilities required to deter, or if deterrence fails, to 
defeat aggression in the Baltics, I would like to say a few 
more words about the current posture and size of America's 
ground forces in terms of meeting this and other pressing 
threats.
    First, we must address the posture of our ground forces, 
which we have talked some about already. As my colleague 
stated, the Russians can overrun the Baltics and reach the 
capitals of Tallinn and Riga in 60 hours or less. Therefore, 
deploying three armored brigade combat teams [BCTs] and other 
combat and support forces after the war has begun will not 
work. They need to already be there when the fighting starts, 
or they will be too late.
    The first option then is to preposition equipment in the 
Baltics and then deploy soldiers to man this equipment on 
warning of a Russian attack. This option requires sufficient 
strategic warning to assemble and deploy forces to the Baltics, 
rendezvous with their equipment, and then move to their 
defensive positions. This takes time and requires access by the 
air, sea, or ground to the Baltics, access which the Russians 
can interrupt with their anti-air, anti-sea, and surface-to-
surface rocket and regular artillery forces.
    Also, a massive deployment of troops during a crisis may 
prompt the Russians to speed up their offensive if this, 
indeed, was their original intent or if it seems an 
advantageous opportunity in the moment. And the prepositioned 
equipment may be vulnerable to preemptive air and missile 
strikes and to sabotage.
    The second option then is to forward station three armored 
brigade combat teams along with their headquarters, fires 
brigades, and supporting forces in the Baltics so they are 
ready to fight on short notice, much as we had forward 
stationed forces during the Cold War, but this time many fewer 
would be required. Either existing units could be permanently 
moved from their bases in the United States, or new units could 
be activated and reside in the Baltics.
    The third option is to increase U.S. forces rotating 
through Poland and the Baltics from one armored brigade combat 
team currently undergoing heel-to-toe rotations to three 
armored brigade combat teams; again, along with the 
headquarters, fires, aviation brigades, and other supporting 
forces needed to win a fight.
    However, to sustain rotational forces indefinitely, it 
takes three regular brigades in the rotation to keep each one 
deployed. That is for every armored brigade combat team 
deployed, the services have to have one in training or just 
having gotten back, another one getting ready to go. That is 
called a 1:2 deployment or 1:2 boots on ground, or BOG, dwell 
ratio. So for every one brigade that is forward deployed, two 
are either just back or getting ready to go.
    Currently there are 9 armored brigade combat teams in the 
regular Army with a 10th now being formed. At a 1:2 rotation 
tempo, these nine brigades can maintain three forward, just 
enough for the Baltics, as my colleague has described. However, 
a fourth armored brigade is required to defend South Korea 
against provocations from the North and be ready to counter 
weapons of mass destruction issues with North Korea, and the 
fifth has been guarding Kuwait. This would require 15 armored 
brigades at a 1:2 rotation ratio to meet all 5 of these 
demands, and infantry, Stryker, artillery, aviation, and other 
units are subject to the same pressing rotational arithmetic.
    I have given some more detailed analyses in my written 
comments, but the bottom line is that this rotational 
arithmetic hits the ground forces hard in both the Army and the 
Marine Corps. The ground services are hard pressed to maintain 
their day-to-day operations in Afghanistan, Iraq, Syria, 
Kuwait, other Persian Gulf nations, to maintain a posture to 
counter provocations or weapons of mass destruction in Korea, 
and to support other deployments around the world.
    Because of this rotational turbulence, there are not enough 
ready armored forces present in Europe and in the United States 
to respond rapidly to Russian aggression. Increasing the total 
Army to over 1 million soldiers, including a regular Army of 
476,000, certainly helps. Increasing Army strength further to 
1.2 million with a regular force of 540,000 soldiers and 
increasing the Marine Corps to 200,000 would help even more.
    However, the ground forces would need money to recruit, 
pay, and retain these soldiers and marines and to train and 
equip them with modern weapons to restore overmatch or at least 
matching capabilities against modern adversaries, and to employ 
them in ready units.
    Restoring overmatch is particularly important. Today the 
U.S. Army would be outgunned, outranged, and outmanned in a 
fight against the Russians in the Baltics. The Army will need 
to rebuild its maneuverable short-range air defenses, improve 
the survivability and lethality of its combat vehicles, extend 
the range of its cannon and rocket artillery forces to simply 
match the Russians. The Army also needs to invest in theater 
air and missile defenses in order to match advances in Russian 
and missile threats.
    But simple parity with the capabilities of potential 
adversaries should not be our goal. We should seek to have the 
best equipment across the board in order to be sure that our 
soldiers are in a position to win. For the Army, this likely 
requires an increase in total obligation authority. If the 
money needed is simply shifted from modernization accounts, 
then soldiers and marines will be at a disadvantage against 
adversaries that continue to advance their own capabilities. If 
training and exercise accounts are cut, then the readiness of 
our ground forces will suffer.
    Thank you for this opportunity to speak with you. I am 
happy to address your questions in the question-and-answer 
period.
    [The prepared statement of Mr. Bonds can be found in the 
Appendix on page 45.]
    Mr. Turner. Thank you. Mr. Hunter.

  STATEMENT OF ANDREW P. HUNTER, DIRECTOR, DEFENSE-INDUSTRIAL 
   INITIATIVES GROUP, SENIOR FELLOW, INTERNATIONAL SECURITY 
    PROGRAM, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Hunter. Thank you, Chairman Turner and Ranking Member 
Tsongas, for the invitation to be here today and to join my 
RAND colleagues and to hear their testimony.
    I am here representing the Center for Strategic and 
International Studies. I just want to emphasize the positions 
you will hear are mine. CSIS doesn't take positions as an 
organization, but we do have several studies that bear very 
much on today's topic, two of which that I want to mention. One 
is the two-phase report on evaluating U.S. Army force posture 
in Europe done by CSIS in which I have played a small role. And 
the second is an ongoing, soon-to-be-completed project on the 
Army's modernization strategy. And those projects, the first 
was sponsored by U.S. Army Europe. The second has an industry 
sponsorship from GD [General Dynamics], DRS [Leonardo DRS], and 
L-3 [L-3 Technologies]. I wanted to make you aware of that.
    A potential future conflict on NATO's eastern flank 
presents one of, if not the most stressing scenarios for U.S. 
ground forces. The close proximity of NATO's easternmost 
members to Russia, combined with the explicit steps Russia has 
taken to develop and deploy systems designed to undermine or 
match U.S. warfighting advantages, makes the threat in this 
region especially potent.
    In my view, there are three main features of the challenges 
presented by Russia that are central, and I am going to focus 
more on the level of capabilities versus the kind of force-on-
force perspective that our friends from RAND have presented so 
far.
    First, Russia has an A2/AD capability, anti-access/area 
denial, particularly along its border with NATO that presents a 
sophisticated, layered, redundant, multidomain capability that 
hinders the U.S. ability to project power in Europe. Through a 
combination of highly capable layered integrated air defense 
systems and offensive ballistic and cruise missile 
capabilities, Russia presents strategic operational and 
tactical challenges to U.S. ground forces.
    Russia has also invested significantly in its ground combat 
systems, narrowing the U.S. advantage in combat vehicles by 
procuring modernized tanks and other vehicles while gaining an 
outright advantage in terms of indirect fire such as artillery 
and rocket systems. The advanced capabilities provided by these 
systems, when combined with the advantage of shorter internal 
Russian lines of communications in Eastern Europe, presents a 
significant operational and tactical challenge to U.S. ground 
forces.
    Third, Russia's nonkinetic capabilities, particularly in 
electronic warfare, cyber operations, and information 
operations, significantly outpace the limited capabilities the 
United States Army can currently bring to a potential conflict. 
These nonkinetic capabilities potentially undermine the 
effectiveness of U.S. intelligence and anti-armor systems, and 
threaten the ability of the U.S. and its NATO allies to operate 
effectively as a coalition.
    I would also note that it is very likely that Russia--well, 
Russia has, and is likely to continue, to export many of these 
advanced systems to other potential U.S. adversaries, which 
means that these systems are likely to challenge U.S. ground 
forces in a variety of locations around the globe where they 
may be married with even other layers or degrees of challenge 
that you don't see in Eastern Europe.
    So the U.S. Army needs modernization to address these 
problems, but Army modernization is currently facing what we at 
CSIS have termed the triple whammy. Let me walk you through 
that.
    The first is that the Army is near the bottom of a 
historically severe budget drawdown. Army modernization funding 
declined 74 percent between 2008 and 2015, as a result of the 
drawdown from two wars and the imposition of the Budget Control 
Act [BCA] caps. The magnitude of this drawdown exceeds the 
drawdown the Army experienced after the end of the Vietnam War 
and also the drawdown after the end of the Cold War. And we 
have some charts on that in my written testimony.
    The second aspect of the triple whammy is that as part of 
this deadline in our remodernization, there has been an 
unprecedented decline in Army R&D [research and development] 
funding. While the recent drawdown in Army procurement funding 
is roughly in line with those of the previous drawdowns, what 
is entirely different this time is a drawdown in R&D funding 
which is roughly twice as large as previous declines.
    While R&D funding has been relatively preserved in previous 
drawdowns, this time it was a target, falling over 50 percent. 
This decline is concentrated in the later stages of research 
and development at the prototyping and system design and 
development stages, which are the immediate precursors to 
fielding new capabilities. And we have termed this phenomenon a 
7-year trough in the pipeline for developing new Army systems.
    The third aspect of the triple whammy is that the current 
drawdown has occurred after a relatively ineffective 
modernization cycle, for the Army, in the buildup that preceded 
this drawdown. The failure of a range of Army modernization 
programs such as Future Combat System, Comanche, Crusader--
there's more--in the last modernization cycle and the focus on 
procuring less enduring systems like MRAPs [Mine Resistant 
Ambush Protected armored vehicles] during the buildup which was 
worth doing, but many of which have not been retained, meant 
that the last modernization cycle did much less to modernize 
the Army than the ``Big Five'' acquisition cycle of the 1980s.
    So unlike the Cold War drawdown, the Army has experienced 
this drawdown without the advantage of having recently fielded 
large, modernized fleets of equipment in the buildup. And as a 
result of the unprecedented decline in R&D funding, it enters 
the current modernization cycle without the same foundation of 
systems in the pipeline that are ready to procure going 
forward.
    Now that the drawdown is over and the defense budget is 
poised to begin to grow--I am tempted to knock on wood, but I 
think it is true--the Army's modernization strategy must be 
reoriented to address these new challenges, including those 
that are the topic of today's hearing.
    The fiscal year 2017 Army POM [Program Objective 
Memorandum] projects modernization funding that is 
approximately $7 billion below the historical average for Army 
modernization funding, and that is in constant dollar terms. So 
the hole is quite large.
    If you look instead of at the overall average, if you look 
at the average during periods of growth, which we believe we 
are entering, by the most conservative estimate we could come 
up with, it is at least $9 billion below that average 
modernization level during periods of increase. So it is hard 
to escape the conclusion that the Army is going to need 
substantially increased levels of modernization funding if it 
hopes to field significant new capabilities in the coming 
years.
    And I would note that to the extent that you have force 
structure increases, you are going to need some modernization 
funding just to make sure those units are equipped at a 
baseline level. So that will merit an increase, but that is not 
going to deliver the kinds of new capabilities that will be 
required to address some of these Russian challenges.
    In my view, the goal of delivering the Army the key 
capabilities it needs is best accomplished by adopting an Army 
modernization strategy that focuses on adding capabilities to 
the Army's large force of fielded systems across five major 
capability areas, including air and missile defense, advanced 
protection systems, electronic warfare, cross domain fires, and 
logistics. These capabilities will require and can further 
leverage the Army's substantial investment made in the last two 
decades in networking and situational awareness.
    The Army can obtain the fastest and most pervasive 
improvement in its force by progressively fielding these 
improvements in regular, sizeable increments. In addition, the 
Army's modernization strategies should explicitly set aside 
room in the POM for quickly developing, prototyping, and 
deploying capabilities in response to emerging threats and 
opportunities as the Army has done with this committee's help 
with the up-gunned Stryker vehicle.
    I will close by just saying a little bit about allies and 
partners in Europe. There is some good news here that I want to 
start with; highlight the good news first. Our allies and 
partners in Europe have fielded actually a number of 
capabilities that were designed and do some measure of meeting 
this challenge from Russian systems. Whereas our indirect fire 
systems can be outranged, some of our partners in Europe 
actually have longer range artillery so we can gain leverage by 
fighting in coalition with these partners and at times 
potentially acquiring some of the niche capabilities that they 
have developed into the Army's force.
    I would also say, Mr. Chairman, you mentioned that 2 
percent of GDP [gross domestic product] metric on the front 
end. I just want to emphasize that that is a good metric, but I 
think we should also focus on where that money is getting 
spent. I think it is critical that our allies and partners are 
spending any increase that they might put against their defense 
budgets on these challenges and not simply increasing defense 
spending in areas where it is not going to pay off in these 
potential conflicts.
    I think the challenge on NATO's eastern flank is a 
harbinger of fuure challenges facing the Army, and I urge this 
committee to keep that in mind as it does its oversight and 
focus on the budget this year. Thank you, sir.
    [The prepared statement of Mr. Hunter can be found in the 
Appendix on page 74.]
    Mr. Turner. Thank you, all of you, and I want to thank also 
RAND and CSIS for what you do in being able to give us as 
policymakers the ability in a nonclassified basis to take 
information, discuss its implications and impacts, and your 
expertise then is lent to us as we then formulate policies to 
come out of what some of the important issues that you 
identify; so thank you for the work that you do.
    Mr. Hunter, I agree with what you said on how they spend 
the money. We are very excited, of course, that the President 
has made a point on the 2 percent. I was in Munich and in 
Brussels following on with the Vice President and Secretary 
Mattis and was somewhat interesting as to the tone that I might 
expect when I got there, but, in fact, it was actually 
embracing. NATO members know they have a problem. They know 
they need to get to the 2 percent. I think that is going to be 
an important discussion, and I think in part they understand it 
because of what the three of you have been describing. Russia's 
aggressiveness and threat to Europe should not represent the 
need for a backstop by the United States. We should be an 
additor. We should be an addition to their capabilities.
    The fact that Russia has an economy the size of Italy yet 
can threaten all of Europe without us is something that I think 
most of our European allies are beginning to address and 
looking to their 2 percent. But, Mr. Hunter, as I was leaving 
the Munich Security Conference, I was reading a piece on how 
the 2 percent, as you just said, is not necessarily the most 
important number. Nearly half of the expenditures from our NATO 
partners are assessed at possibly being wasted from duplication 
of effort, lack of focusing on unique capabilities and 
capacities, so that there is a unified capability that is 
delivered to NATO. So I appreciate your points there.
    Also I appreciate the points that you have made on the 
Kaliningrad, Crimea, and Syria area access of land, sea, and 
air denial that we are facing. That is an additional stressor 
besides just Russia's aggressiveness that we are now looking 
into an environment where we don't have the freedom of movement 
in addition to, as RAND has pointed out, that the Atlantic now 
being a contested space.
    I just want to give one editorial note to the conclusion to 
the RAND study that there are three possible choices for the 
United States or our allies or outcomes, one being a protracted 
conventional war; two, risking or initiating nuclear exchange; 
or, three, essentially surrender. Those really aren't three 
options, and I appreciate the fact that you, by bringing this 
issue forward, help us create additional options so that we are 
not faced with that.
    Looking at Russia's efforts on denial of access, their 
modernization programs, their size, their geoproximity to the 
area that could be in conflict, ability to resupply, and the 
threat of their exercises that are giving them new capabilities 
to operate within the area, it raises the issue of not just our 
forward deployment or what our posture should be, but also the 
issue of modernization.
    So my question to you is in looking at just the issue of 
Russian modernization in addition to its aggressiveness and the 
fact that Mr. Hunter, as you have indicated, 74 percent of the 
Army modernization funding was cut since 2008, what should be 
our top three priorities looking at our Russian adversaries--
and they have self-declared themselves our adversaries--what 
should we as a committee be focusing on for Army modernization 
as we move forward?
    And we'll begin with you, Mr. Bonds.
    Mr. Bonds. Thank you, Mr. Chairman. I would say the first 
three that I would look at very carefully: Long range fires is 
an issue. At the moment the Russians can outrange us and outgun 
us. Having the fires that can respond in kind will be 
important. Some of those have to be capable of not only of 
performing counter-battery against their surface-to-surface, 
rocket artillery, or longer range missile systems, but some of 
them also have to be able to conduct either suppression of 
enemy air defenses--we call it SEAD--or destruction of enemy 
air defenses. We call that DEAD or ``DEAD,'' if you prefer. The 
submunitions that are used will be very important. Having 
submunitions that can actually also on those systems be able to 
break assaults of massed Russian armored forces will be 
important. Having something with precision because some of the 
firing may be into Russian territory, like Kaliningrad, and 
being able to limit collateral damage in those strikes will be 
important. So the very first one I would say would be long-
range artillery fires with the accompanying submunitions.
    The second one is because of the pressures to have soldiers 
for a variety of other purposes in the regular and 
counterinsurgency operations we have fought over the last 15-
plus years, one of the areas that the Army has had to divest is 
short-range air defenses. Having the ability to keep Russian 
ground attack airplanes off of the U.S. and NATO brigades will 
be very important, especially if the anti-access/area denial 
forces in Kaliningrad and the other ones that Russia could push 
forward in an invasion can deny the blue Air Forces, the U.S. 
Air Force and our NATO allies, the ability to defend NATO and 
U.S. ground forces with our own airpower. So short-range air 
defenses are another priority.
    The third one would be modernization of our combat 
vehicles. This is something that is very important, being able 
to give them better protection, actual protection systems. 
Being able to give them longer range direct fire weapons would 
be a third important thing.
    If I could sneak in a fourth, electronic warfare and being 
able to protect our own headquarters would be a fourth area. We 
have to have mobile headquarters. We have to be able to both 
protect them against Russian electronic and signals 
intelligence capabilities. We have to be able to respond in 
kind.
    Mr. Turner. Mr. Hunter or Mr. Shlapak.
    Mr. Hunter.
    Mr. Hunter. I have a very similar list. I might slightly 
reorder them, probably put air and missile defense first. The 
one thing I would add to the list that he had is the issue of 
munitions, and, you know, the NATO alliance has often faced a 
numerical disadvantage when confronting the threats in Europe, 
previously the Soviet Union, the Warsaw Pact. And the answer to 
that was more precision, was higher tech-type response, and in 
this context when you talk about potentially being somewhat 
outranged or out-volumed by Russian indirect fires, the 
potential U.S. response to that can be longer range guided 
precision munitions that don't require the same volume in order 
to be effective. We have some of those that have been 
developed, but we don't see them across the full range of Army 
munitions.
    And so I think there is a lot that can be done to increase 
the effectiveness of the munitions coming out of the tank, out 
of the artillery systems, off the helos [helicopters], across a 
wide range of Army systems.
    Mr. Turner. Mr. Shlapak.
    Mr. Shlapak. I would just like to reinforce the importance 
of the short-range air defenses within Army maneuver 
formations. In our war games, we frequently see U.S. and NATO 
ground forces come under very heavy air attack from Russian 
fixed- and rotary-wing attack aviation, inflicting substantial 
losses, and contributing significantly to NATO's problems.
    Now, American soldiers have not come under air attack since 
1950. The dominance of U.S. airpower has been that substantial 
for that long. The challenge presented by Russia's air 
defenses, the integrated air defense comprised of the most 
sophisticated surface-to-air missiles in the world, plus an air 
force that, while not nearly the quality of NATO's, is good 
enough to stay in the game, means that in the opening hours, 
days, perhaps even weeks of a fight with Russia, NATO's 
airpower will be busy trying to deal with those air defenses, 
trying to deal with that air force, and will only be available 
to support the ground forces either with air-to-ground fires or 
to provide air defenses episodically, in bubbles of space and 
time.
    The Army will have to be able to defend themselves from air 
attack. Right now their capability is essentially zero. That 
needs to change and change soon.
    Mr. Turner. Turning then from modernization to the issue of 
how should we position ourselves, you have pointed out the 
issue of the aerial denial and infrastructure which inhibit our 
ability to get forces forward, pointing out the issue of early 
warning and not likely to be available to us, and that of 
course is cast in the light of the exercises that Russia is 
having on a repeated basis in large scale exercises where we 
are unable to ascertain their intent.
    In looking at the war gaming that you have done, what do 
you see as our needed permanent and rotational forces mix, and 
what are your recommendations to change this dynamic?
    Mr. Shlapak. The challenge of warning is a substantial one 
because, as you say, we have seen very large exercises by the 
Russians, the so-called snap exercises, that occur with very 
little warning and comprise thousands, tens of thousands of 
troops, and the challenge of course is at the end of the 
exercise, do they turn right and go home, or do they turn left 
and create problems? And that is what leads to our assessment 
that a scenario that begins with very few days of warning for 
NATO is eminently plausible, and it is because of that timeline 
that forward presence is so important, which is why while there 
are options, as my colleague Tim suggested, for how you achieve 
that forward presence, the most robust answer would be to 
permanently deploy three heavy brigades in the region.
    Other forces can get there more rapidly. Airborne forces 
can move from Fort Bragg or from Italy. The Stryker brigade 
that is in Germany can road march, and it has demonstrated its 
ability to road march rapidly from its peacetime location into 
Eastern Europe. Tanks don't get from Fort Hood to Europe fast. 
It takes weeks. NATO will likely not have weeks. Even drawing 
out prepositioned equipment from stocks that are located in 
Europe takes more time than NATO is likely to have. My best 
judgment, backed I think by our war gaming, is that forward 
stationing of those forces creates the most robust, most 
responsive, most reliable deterrent.
    Mr. Turner. Mr. Bonds.
    Mr. Bonds. Mr. Chairman, I would like to add to the 
comments my colleague made, with which I certainly agree.
    There are a couple other things we need to think about in 
addition to those. One is logistical infrastructure. It is 
something that doesn't get a lot of press. It is not always 
interesting, but what it really means to be ready in Europe 
means that you have got a logistical infrastructure that can 
handle a warfighting--can sustain a warfighting load. Something 
we paid a lot of attention to in the old Cold War days, now all 
those logistical needs go a thousand miles to the east. We have 
never had the kind of infrastructure in Eastern Europe that is 
now needed.
    We have been really heartened. We recently returned from a 
visit to U.S. Army Europe and to the 3rd and the 4th ID 
[Infantry Division] that is deployed to Poland, Zagan, Poland. 
They are making enormous strides in trying to understand the 
infrastructure that is needed, what is available, what 
improvements need to be made, really rapid progress, but much 
more needs to be done.
    The other thing that the trip confirmed for us was the need 
to operate, to train, and to develop interoperability with our 
NATO allies. It used to be in the Cold War they would be 
interoperable on a corps-to-corps or division-to-division 
level. Now with the NATO multinational battle groups that are 
going to be forward deployed, they need to be interoperable at 
a company and even a platoon level. So having the ability to 
interoperate with the forces of other nations, different 
radios, different languages, different procedures, very, very 
important. Again, they are making great strides in their 
training. Much more needs to be done.
    Mr. Hunter. I think there may be a slight point of 
difference here between the work that has been done at CSIS and 
RAND's work, in that we observed quite a number of practical 
limits on how forward deployed forces, how forward they really 
are. And actually to the point made about the logistical 
challenges in Eastern Europe, and it is actually quite a long 
way from the areas in Germany where we have traditionally 
stationed forces to the Baltics. And on the timeframes that the 
RAND war game looks at, you know, you are not going to get from 
Germany to the Baltics in that timeframe with significant 
force.
    So I would characterize the approach that our CSIS study 
looked at as focused very much on deterrence, in other words, 
trying to make it such that if there was a decisive move made 
against the Baltics, that it would necessitate offensive action 
against other countries in Europe, so raising, escalating the 
cost to Russia if they were to decide to take that approach.
    And our study recommended a mix of forward-deployed forces, 
rotational forces, and prepositioned equipment sets, such that 
it would be very clear to the Russians that making such a move 
would have very high costs.
    Mr. Turner. Thank you for these perspectives. They give us 
the ability to do that assessment of what we have to make 
certain that, what capability or capacity that our military 
has.
    Mr. Shlapak, you had an additional comment.
    Mr. Shlapak. Yes, I just wanted a point of clarification, 
if I may, Mr. Chairman. If I were waiving a magic wand instead 
of a marker pen and I were determining where U.S. forces would 
be forward deployed, it would not be in Germany. It would be in 
the Baltic States themselves or at the furthest in Poland 
because I agree with you, Mr. Hunter, that having them in 
Germany is too far away. Currently we are still postured to 
defend the Fulda Gap, which is no longer the problem.
    Mr. Turner. Niki Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman, and thank you all for 
being here today. I think in your testimony you are certainly 
raising some very concerning questions, and I appreciate Mr. 
Turner's commitment to pursuing this issue.
    None of the answers are easy given the multitude of threats 
that we confront across the globe and the need to be aware and 
responsive to those in a fiscally constrained environment, and 
so I think the decisions that we make going forward has to 
recognize that and try to make smart investments as we do that.
    And as you all have been talking about, the Army is 
currently rotating units in and out of Eastern Europe in an 
effort to deter Russia from provocative action in the region, 
and I think that is quite appropriate. But as we know, this is 
an expensive undertaking, and the prospect of further force 
buildup would only increase this cost over time, and I think 
that is something that we struggle with.
    So I'd like to get your take on what type of deterrent 
capability we could derive from the deployment of other kinds 
of things like advanced sensors or robotics or other standoff 
capabilities in concert with or in lieu of U.S. ground forces 
to the region.
    So in other words, how best to take advantage of the third 
offset strategy capabilities? And in talking about that, what 
are the benefits of a conventional force versus using and 
taking advantage of those new strategy capabilities that are 
being developed?
    And I will start over here with you, Mr. Hunter.
    Mr. Hunter. Thank you. A couple of points that I want to 
make on that. You know, technology can have a deterrent effect. 
In many cases, one way to achieve that is to reveal a 
capability that you have and make it very explicit. Another way 
to do it is to achieve some ambiguity about what capabilities 
you may or may not have. And I am thinking at this point 
specifically about the Strategic Capabilities Office which is, 
in fact, very much focused on this sort of problem set.
    How do you develop a suite of capabilities and selectively 
reveal some and make it clear that you are also developing 
others that you don't reveal in order to have an effect, a 
deterrent effect, on a potential near-peer competitor because 
it raises their uncertainty about whether they are going to 
enjoy the success that they might imagine that they would enjoy 
based on their uncertainty about what capabilities you might 
actually be able to bring to the fight.
    The thing that comes to mind specifically when it comes to 
NATO's eastern flank was referenced earlier, the need for 
better intelligence indications and warnings, and so I think in 
terms of the capabilities that would be good to feel that you 
could reveal, would be better capabilities to understand the 
Russian order of battle. We used to be extremely good at that, 
at knowing exactly where all the Russian forces were and what 
their capabilities were. That has atrophied somewhat because 
our focus has been elsewhere for very good and understandable 
reasons.
    And I think there is a lot that can be done to renew that 
and some additional technical approaches to enrich our 
understanding of their order of battle and of what kind of 
maneuvers they may be undertaking. And particularly, as you 
know, they are fond of doing these exercises, and you are 
always left wondering if that is really an exercise or if it is 
something more. And I think there are some capabilities we 
could field that could help us there.
    And then I think on this area of longer range fires and 
munitions, capable munitions across a larger set of the Army's 
already installed base of munitions, that is a very Strategic 
Capabilities Office type approach of leveraging what we have 
already fielded relatively quickly with improvements to raise 
the uncertainty on the other side that our weapons may have far 
more capability than they know of, and that would be another 
effective approach.
    Ms. Tsongas. Mr. Bonds.
    Mr. Bonds. Representative Tsongas, thank you so much for 
that question. As a former aircraft designer, that was my life 
for about a decade.
    The development of new capabilities is always a great idea, 
especially when it is coupled with a better approach to combat. 
In some respects, the last thing you want to do is to have to 
employ large numbers of humans of any service when you can use 
technical means in order to make the humans you have more 
effective. But capabilities are really only real when they 
reach the field. The thing that I would want to caution this 
committee and the greater defense community against is relying 
on a capability until it is actually proven.
    And so on our way to building, testing, and fielding, 
whatever the third offset winds up actually realizing in terms 
of new capabilities, we are going to have to maintain our 
current force structure. In some ways we say, hey, let's not 
forget offset 2.0 or offset 2.5. We are going to want to make 
sure that we really have a current capability to deter. Our 
belief, the belief we have from our work, our conclusions from 
our work, is that the only real deterrent is an ability to deny 
an adversary their objectives and ultimately to defeat them.
    So we need that capability now as we seek to improve it 
going into the future. We always want to wind up in a better 
place, and if the question really looks at how we increase our 
capabilities in the future, I am all for that so long as we can 
still meet the challenge today.
    Ms. Tsongas. Mr. Shlapak.
    Mr. Shlapak. Let me echo my colleague in saying that 
looking for new ways of solving these hard problems is always a 
worthwhile endeavor. And certainly the American way of war has 
always embraced the notion of capital labor substitution, 
because putting Americans in harm's way is never the right 
answer to any problem.
    Having said that, let me talk a little bit about the time 
factor and how that drives how you have to approach this 
problem. In our war games, the fastest Russian forces are 
allowed to move is 5 miles an hour. That is unimpeded, on a 
road, nobody attacking them, nobody shooting at them, nobody 
bombing them, 5 miles an hour. That is the Capital Beltway on 
Thanksgiving weekend. The fastest they are allowed to move, and 
the fight is still over in 36 to 60 hours.
    Why is that important? It is important because things like 
long-range precision fires take time to work. It simply takes 
time to deliver enough firepower to wear down an attacking 
force to the point where it stops, where it is defeated. The 
reason ground forces are so important is that they allow you to 
shape the battlefield in a way where you slow the adversary 
down even from that 5 miles an hour. You slow them down from 5 
to 3 to 2 to 0. And you also force them to operate in different 
ways that make them more vulnerable to those long-range 
precision fires so that you get a synergistic effect from those 
ground forces and from those fires. And we have found that that 
synergy is vital.
    If you take the ground forces out of the equation or you 
have inadequate ground forces or you have the wrong ground 
forces, you don't have the heavy forces that can maneuver and 
engage the heavy armor of the Russians, that can shape the 
battle space, then the fires become much less effective and are 
simply inadequate to stop the offensive before it reaches 
Tallinn, before it reaches Riga.
    So while I certainly encourage the pursuit of new options, 
new ideas, new concepts, new technologies, we should be 
cautious about understanding how the synergies affect actual 
battlefield outcomes.
    Ms. Tsongas. Thank you. I yield back.
    Mr. Turner. Mr. Cook.
    Mr. Cook. Thank you, Mr. Chairman. I read the report that 
you had. It was pretty scary, and we had a CODEL [congressional 
delegation] that went to Europe last summer and we discussed 
that, and it almost went back to a book that was written many 
years ago. I don't think Mr. Hunter was born when it was 
written. It was called the Third, if I remember right, and I 
haven't referred to it in years, Third World War by--exactly. 
And the Fulda Gap and everything like that. It was kind of 
scary in terms of the American force, and it was kind of a 
wakeup call to the American military at the time.
    And I actually think your report should be a wakeup call. 
You are absolutely right. And, of course, I am not a big fan of 
the sequester. I wasn't. It is killing the Army. It is killing 
training. It is killing weapons systems. For those of you who 
don't know me, I am real big on reactive armor. I love the 
Israeli Trophy system and some of the other things.
    I wanted to ask you about systems like HIMARS [High 
Mobility Artillery Rocket System]. You briefly referred to 
multiple launch. I agree with you. I don't think you are going 
to get those tanks there. You know, years ago they used to be 
able to put tanks on a train and get them there. You are right. 
It is going to be the traffic jam at noon, and to react to 
that, you are going to need those long-range systems to stop 
interdicting and buy us time.
    And can you go into that a little bit more on HIMARS and 
some of these other systems, as well as some of the air systems 
that you think could help us on that.
    Anybody.
    Mr. Bonds. Thank you for the question, Mr. Vice Chairman. I 
would like to talk about the ground-based rocket artillery and 
then go to colleagues for some of the air part of that.
    On the ground-based, I think that long-range precision 
fires are going to be very important. We need to actually 
probably look at longer ranges, and we need to look at where 
they can be based. I don't think all by themselves they are 
going to be sufficient. I think that the name of this game, if 
we are going to win it, if we are going to play it and win it, 
is going to be combined arms. It is going to be a combination 
of the long-range fires, maneuver forces, and air forces.
    Mr. Cook. No. I agree. I am just kind of focusing on the 
HIMARS because of the range in that particular system right 
now.
    So no, what you are saying is absolutely right, but I am 
just thinking here, where are we going to throw some money 
because we have to make choices on this committee and critical 
choices. So we can't buy everything, but we can buy certain 
things.
    Mr. Bonds. So we have done some work on this, and among the 
things, one of the things we like to look at is the whole end-
to-end, some call it a kill chain. Others might call it an 
effects chain. One of the things we have to work on with our 
long-range fires is a better ability to sense where the targets 
are, a better ability to actually be able to do the targeting 
and pick them out from what will be potentially an enormous 
amount of clutter.
    One of the things the Russians have always been very 
skilled at is having camouflage, concealment, deception. 
Presumably they will be on their best game if they ever decide 
to attack NATO. Having the ability to seek things even in a 
cyber challenge environment is going to be very important as 
well.
    The ability then to attack them, sir, I think is what you 
have pointed out. Having a longer range in our missiles would 
be important. Having simply more of them.
    One of the things Mr. Hunter pointed out is that we don't 
simply buy enough of the rocket munitions. Having an adequate 
supply of them will be important.
    The other thing we are going to need to consider is what we 
are going to do about submunitions. We have been abiding by the 
Oslo Treaty. It is something that we may want to carefully take 
another look at. Yeah, you know without meaning to trivialize 
this, if it gets to the point where we cannot stop mass 
formations any other way, we will need to look at our 
utilization of those munitions.
    Mr. Cook. All right. I am going to switch gears because I 
am probably using up far too much time, but I also wanted to 
throw in a political or foreign affairs question. Belarus. 
Belarus is going to be key on this, and everybody knows the 
geography where Kaliningrad, part of Russia is right there, but 
a lot of this attack is going to come from Belarus--correct me 
if I'm wrong--or support of this attack.
    And somebody referred to it, they got to know right off the 
bat that, hey, you are going to be drawn into this if you are 
going to attack these other countries. Belarus is a satellite, 
in my opinion, of Russia. Any comment on that? I know it is 
getting off a little bit but.
    Mr. Shlapak. Belarus is an interesting case. We give our 
red teams free play in terms of how they choose operationally 
to attack. Do they attack north? Do they attack in the middle? 
Or do they attack south? And almost universally they choose to 
attack north. They don't choose to attack through Belarus.
    And when we ask them why, one of the responses that they 
give us is that from their point of view, Belarus is to them 
what the Baltics is to NATO, this very large, hard-to-defend 
area that if they attack through it, becomes their 
responsibility. It becomes their rear area. And because the 
Belorussian military is not very high quality, they can't 
defend themselves.
    So it becomes actually a liability for the Russians if they 
use it as a launching point for a major offensive. And so they 
tend, at least in our war games, they tend to focus on the 
north where they can operate out of sovereign Russian 
territory, and thus make NATO face the challenge of actually 
attacking into Russia, rather than attacking into, as you say, 
a Russian satellite or Russian----
    Mr. Cook. Yeah. But the snap exercises, you know, they come 
down from the south. Remember the ones that come that way, 
around Kaliningrad?
    Mr. Shlapak. Right. One of the scenarios that you often see 
played is sort of a land bridge out of Belarus towards 
Kaliningrad, which is a challenge, but it does on the Russian 
side create this liability which is now the Russians have to 
commit forces to actually defending that rear area for 
precisely the reason, Congressman, that you say, which is 
Belarus becomes a co-belligerent and, therefore, becomes liable 
to attack by NATO.
    Mr. Cook. The last thing I want to say, it was very 
disturbing, the report and the comments that are made, but more 
people in Congress and what have you, not just this committee, 
have to hear what you are saying about that because you are 
spot on. Thank you.
    Mr. Turner. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. Gentlemen, thanks so 
much for joining us today.
    I wanted to start with Mr. Bonds. Looking at the gaming 
scenario that you put together, you talked about the seven 
brigade combat teams, and I know that three of those are 
armored brigades. We have one of those rotational armored 
brigades there in Europe. Tell me the scenario about how the 
other six come into being. What capability is there with our 
NATO allies? Can they marshal enough to be equivalent to six of 
our brigade combat teams? If not, what do we have to do to 
backfill? What do we have to do to move other assets around in 
CENTCOM [Central Command], EUCOM [European Command], those 
areas?
    Give me the scenario about how we deal with that as a 
backup to having on the ground a permanently stationed BCT. We 
had a chance to visit the Baltics not long ago, and, of course, 
their want is for U.S. presence there. They were asking for 
just battalion presence, not rotational presence there. Their 
facility is pretty rudimentary, as well as their training.
    We also know too, the very short timeframe with Russian 
forces coming across with armor units, artillery units, and 
boots on the ground about how quickly they would overrun 
Tallinn and those other capital cities there in the Baltics. 
Give me the perspective about how do we, we have identified 
what we need currently with what we have. It seems we are far 
short of equity there. Give me a scenario about how those 
pieces that already exist kind of come together.
    Mr. Hunter. Let me give you a little flavor of our CSIS 
look on this, and then RAND I think has their own perspective 
on it. They are not wildly dissimilar.
    The analysis that CSIS did suggested that a total force of 
about 13 coalition, if you will, NATO BCTs could effectively 
deter a move by the Russian forces that are typically deployed 
in their western area, which is to our east. So of those, about 
eight would be U.S., and five would be NATO or Allied, many of 
them from the Baltics.
    And let me just say a little bit on the Baltics themselves. 
I think you would be pretty challenged to permanently station 
three armored BCTs, U.S. BCTs or NATO BCTs, in the Baltics not 
only for geopolitical reasons because even though we would know 
that they were entirely defensive, they might not look so 
defensive to the Russians, but also just from a logistics and a 
space. They are not humongous countries.
    So that is a concern, and it is one reason why the CSIS 
look focused on adding an additional armored brigade combat 
team to Europe, which was also a recommendation of the 
Commission on the Future of the Army, and, of course, Dr. 
Hicks, my colleague who led our study, was also on the Army 
commission. So it focused on adding that one armored brigade 
combat team and filling in essentially the rest of the U.S. 
eight with forces already in Europe, rotational forces, and 
then the preposition sets that could be fallen in on relatively 
rapidly. That was the approach that our study recommended.
    Mr. Wittman. Very good. Mr. Bonds, give me your perspective 
if you would.
    Mr. Bonds. Sir, if I could I would like to defer to my 
colleague and then add in anything that he may miss.
    Mr. Wittman. Mr. Shlapak.
    Mr. Shlapak. Which is bound to be extensive.
    Congressman, so let me talk a little bit about the 
specifics of how we constitute that force. Our assumption, 
which is probably optimistic from the NATO point of view, but 
that was deliberate in the way we staged our game, our 
assumption was during the warning period, roughly four brigades 
could arrive on scene. That would be the division ready brigade 
of the U.S. 82nd Airborne deploying from the CONUS [continental 
United States], the 173rd Airborne coming out of Italy, and the 
2nd Stryker Brigade coming from Germany. So those are three 
U.S. brigades that could arrive.
    And then what is called the lead element of the Very High 
Readiness Joint Task Force [VJTF] which is a composite NATO 
formation. So we assume that those could arrive during that 7- 
to 10-day warning period that we allocated to NATO. Now the 
rotational brigade is potentially a very powerful formation, 
but the current concept for it is to spread it out from Estonia 
to Romania in small sort of penny packets, again, more as a 
reassurance than a deterrent posture.
    Our game assumed that it could be reconstituted and be made 
ready to fight as a brigade in that 7- to 10-day warning 
period. Realistically, it is not clear that could be done, and 
it is also not clear that our NATO allies would, in Hungary and 
Romania and Bulgaria, be particularly happy about surrendering 
their reassurance force at the edge of a war with Russia.
    Our NATO allies are deploying three battalion-size, 
battalion-plus battle groups, one in each of the three Baltic 
States. Conceivably they could combine to form something 
approaching a heavy brigade, but again their concept of 
operation is not consistent with that. The plan is for them to 
be very tightly integrated with the individual national armies, 
and we have had conversations with the appropriate folks in 
NATO, and it is clear there is absolutely no concept to sort of 
``Avengers Assemble'' and bring them together to sort of fight 
as a brigade. Instead they will remain with their national 
forces.
    Our NATO allies have unfortunately since the end of the 
Cold War, and also ongoing through this century, drawn down 
their heavy combat forces substantially. Now some of that, to 
be fair, is them being good allies. We asked them to come and 
fight with us in places like Iraq and Afghanistan. That didn't 
require tanks. That required infantry, and so they made the 
choice to seek to make those contributions, which meant 
retiring tanks. It meant doing away with their heavy forces.
    So you look at, say, Germany which during the Cold War in 
the late 1980s fielded 12 heavy divisions. Today they have a 
little over 200 tanks in their entire active inventory, and it 
would probably take them 45 days or so to get a single heavy 
brigade into action.
    The Allies today probably are not well postured to 
contribute much beyond what they already are in terms of these 
three battle groups plus the VJTF to that initial force 
required to sort of keep NATO in the game for longer than 2\1/
2\ or 3 days. The burden probably falls on the United States 
for that, and that is where we say that those other armored 
brigade combat teams somehow have to be produced, whether 
through the rotational dynamic that my colleague discussed or 
by permanently dropping them down there.
    Mr. Wittman. Got you. Very good.
    Mr. Bonds. I would like to add just one thing to that if I 
could.
    I agree with Mr. Hunter that actually stationing three 
armored brigade combat teams in the Baltic States would require 
a fair amount of infrastructure that does not at present exist. 
It is not just the infrastructure to host them of course, as 
you know, but it is the sustainment infrastructure, the port 
infrastructure, et cetera. It can be built, done it with many 
more forces in Germany earlier, but that infrastructure does 
yet remain to be built.
    I will take a--push back a little bit though on the notion 
that three of our brigade combat teams in the Baltics would 
look like an offensive threat to Russia. They might say that, 
but they actually know better. The canonical formulation is 
that if you are going to attack, you need a three-to-one 
advantage.
    Right now in the western military district, the Russians 
can count on 27 heavy brigades. If only one-third of them is 
ready, that is nine ready armored brigades that would be 
defending against an attack of three. The Russians know that 
that is not a correlation of forces that would actually imperil 
St. Petersburg. And in fact, there is a statement by the 
Russian Minister of Defense that admits as much. Apparently 
they have read our report too. There have been something like 
2,500 downloads in Russia. They have actually responded to it 
in the press. They have said, well, if NATO, in fact, does put 
three armored brigades in the Baltics, we will have to put 
three new divisions in the western military district.
    So they understand the correlation of forces, still three 
to one to maintain an advantage of attack. They are saying they 
are going to increase their forces ninefold if NATO puts three 
in the Baltics.
    Mr. Shlapak. If I may also just address that very briefly. 
I have had the opportunity to speak at conferences where 
Russians were present, and I have invited them to come play our 
war game, and to play NATO, and to attempt to invade Russia 
with three brigades against our red team playing Russia and 
defending, and I have actually offered to give them two tries 
in case the first try doesn't go very well, and so far the 
Russian General Staff has not responded to this invitation.
    Mr. Wittman. Very good. Thank you, Mr. Chairman. I yield 
back.
    Mr. Turner. Thank you. Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    Mr. Shlapak, during all the testimony and questioning, I 
was reviewing your work entitled Reinforcing Deterrence on 
NATO's Eastern Flank, Wargaming the Defense of the Baltics, a 
little bit in greater detail than what your testimony has been.
    But one part of it says that seven brigades, quote, ``could 
suffice to prevent the rapid overrun of the Baltic States,'' 
end quote. Two phrases or words are important. One is 
``could,'' and the other one is ``rapid overrun.'' If we had 
those seven brigades there, how would you describe the word 
``could''? How would that change.
    Mr. Shlapak. Well, there are a number of factors that 
determine combat outcomes, and the human factor is very 
important.
    One way I describe this when I talk about war gaming is 
that you get very different outcomes with the exact same force 
if Ulysses Grant is commanding the blue team or Hugh Grant is 
commanding the blue team. So we have had that.
    Mr. Brooks. I am from Alabama. We prefer you talk about 
Robert E. Lee, but go ahead.
    Mr. Shlapak. Fair enough. But the analogy doesn't work 
quite as cleverly, sir, but fair enough.
    So we have had blue teams that were less successful with 
that seven-brigade force because their application of it was 
more Hugh Grant-like than Robert E. Lee-like. Military art 
remains a very important factor in determining success or 
failure on the battlefield, so the ``could,'' was meant to 
reflect the fact that this does not guarantee success. These 
forces have to be properly employed in order to----
    Mr. Brooks. Best-case scenario, how long would it take the 
Russians if they were intent on taking the Balkans [sic] and we 
put in seven brigades, for the Russians to be successful?
    Mr. Shlapak. We believe that that seven-brigade force, if 
it was properly supported, could hold out for up to 28 days 
against a force of 40 to 50 battalion tactical groups, which we 
assess as being about the maximum effort that the Russians 
could plausibly bring to bear, given current and midterm 
projected Russian capabilities.
    Mr. Brooks. So the best-case scenario is we delay a 2- to 
3-day defeat to a 28-day defeat, assuming that we don't then 
reinforce those seven brigades in some fashion.
    Mr. Shlapak. Reinforcement is absolutely necessary. During 
that 28 days, which after you add in the 7 to 10 days of 
warning you had becomes 35 to 38 days of total mobilization and 
deployment. During that time, the Army currently plans on 
deploying three brigade sets of armor in Europe. During that 
time, we would expect those three brigade sets, if they are 
properly positioned, properly protected, to become available, 
which would allow three additional U.S. armored brigade combat 
teams to hit the ground running.
    You now start getting into the window of time where, with 
modest increases in readiness, German/French/British heavy 
brigades could begin to appear on the battlefield. You have a 
Polish army that is fairly substantial, and upon mobilization 
could begin contributing forces to the fight.
    So if you can hold the line for that month, potentially, if 
you have done smart things with your sustainment, as my 
colleagues have discussed, if you have done smart things with 
your modernization, as Mr. Hunter has discussed, so that you 
are not outmatched during that 28 days, you can begin to bring 
NATO's overall superiority to bear. And that 28 days, where 
those seven brigades are, for those of you who remember your 
World War II history, are sort of Bastogne-like, holding the 
line against the much larger Russian force that is----
    Mr. Brooks. You have answered my question. Let me move on 
to some others.
    As was mentioned previously, and I think this is right on 
point, we are under severe cost limitations, given our 
extraordinary out-of-control deficit and debt. You may or may 
not be aware that the GAO [Government Accountability Office] 
and the CBO [Congressional Budget Office] last--well, in 
January, issued another report saying that what we are doing is 
unsustainable, which is their way of saying we are headed to 
insolvency and bankruptcy. If you look at the current Secretary 
of Defense's comments, also Chairman of the Joint Chiefs of 
Staff, Admiral Mike Mullen, in his testimony, our greatest 
national security threat is our debt, if you believe them, and 
I do.
    How much does it cost for these seven brigades and the 
infrastructure, incremental additional cost, to position them 
in the Baltics as opposed to their being nonexistent or where 
they are now?
    Mr. Shlapak. So it depends how you----
    Mr. Brooks. And anybody can answer that.
    Mr. Shlapak. Right. It depends how you choose to generate 
them. We have done one set of estimates. If you are simply 
moving existing units, the one-time cost to move them is 
roughly $700 million; and then the incremental cost, on an 
annual basis, is roughly $200 million.
    If you create new units, but you exploit existing equipment 
stocks, either by taking equipment out of storage or perhaps 
rerolling Reserve Component units, Reserve Component heavy 
units from armor to Stryker or infantry, you have a one-time 
cost on the order of $4 billion and then annual costs of about 
$2.7 billion. This is for a full-up armored division. So it is 
three brigades plus artillery plus enablers.
    Finally, if you are just going to create completely new 
formations, just create from the ground up an entire new 
armored division, your one-time startup cost, which obviously 
would be spread over a period of years, is about $13 billion. 
And then, again, you have about that $2.7 billion annual O&M 
[operation and maintenance] cost to maintain the force.
    Mr. Brooks. Mr. Chairman, may I have one followup?
    Mr. Turner. Sure.
    Mr. Brooks. All right. You know, there is an old saying 
that the best defense is a good offense. And it seems to me 
that as you are trying to evaluate whether to spend these very 
large sums of money, you also have to take into account the 
probability that Russia is going to attack the Baltics, in 
order to make an assessment as to whether it is worthwhile.
    If we are going to instead talk about a good offense being 
our best defense, what would your-all's thoughts be on us 
assisting Ukraine, both in the Ukraine proper and in Crimea, 
which used to be a part of the Ukraine, a little bit more 
aggressively in order to do two things: One is to force the 
Russians to shift more resources to their efforts in that part 
of the world; and, two, to reinforce that we are sincere about 
trying to deter the Russians should they try to be expansive? 
And if we do it in the Ukraine and Crimea, that would suggest 
that we are going to do likewise in the Baltics, which, in 
turn, might deter them from considering attacking the Baltics.
    What are your-all's thoughts on that?
    Mr. Bonds. Sir, two things. One, the concept of actually 
stretching them across, you know, multiple domains, probably 
always a valuable thing to look at and to spend some attention 
to. Whether that--you know, to what degree that means providing 
more lethal aid to Ukraine would need to be looked at, sir.
    The one thing I would want to caution against is 
substituting a different war. My colleague, Dave Shlapak, says 
we don't want to be in a position of fighting a different war 
rather than defending where they have already attacked and 
intend to win. So it may not be a substitute.
    It may be the situation where you augment a deterrent 
strategy in the Baltics with doing other things, you know, 
being strong other places around their periphery, causing other 
challenges that stretch them in some ways. I think that would 
tend to be an additive thing rather than a substitute.
    My fear would be they might decide that we can hold out in 
the Ukraine, we can keep our operations going longer there 
while we take over the Baltics, and then we will deal with what 
the U.S. and NATO does in the Ukraine.
    Sir, if I may add one thing to your earlier question. I 
want to clarify that it is not so much that we believe we would 
then lose in 28 days instead of 2 or 3 if we added the seven 
brigade combat teams. It is simply that what happens after day 
28 becomes murky, unless those forces can be sustained. They 
will start to run out of stocks, preposition stocks, so those 
stocks have to be replenished. They will have to be reinforced.
    And you may remember, sir, during the Cold War days, the 
standard for NATO was 10 divisions in 10 days reinforcement 
from the United States. But also, 28 days gives a lot of time 
for airpower from the U.S. and from our NATO allies to break 
through the Kaliningrad air defenses. And so at that point, 
heavy airpower and heavy missile fires, if indeed we do invest 
in those long-range systems, can have a chance to become a lot 
more effective and attrit the Russian forces that might be 
outside the gates of Tallinn and Riga. And so I just want to 
add that those things will be going on during that 28 days, but 
you will still need that reinforcement.
    Mr. Hunter. I think I largely agree with what has been 
said. I do think the key is deterrence, because I think the 
truth is, whether it is the scenario that we looked at, the 
scenarios war games there, there is no certainty of victory if 
the Russians make a serious move against the Baltics, at least 
in the near term, right, and that immediate stopping the 
offensive.
    There is not going to be a guarantee of success, so the key 
is deterring them from taking that step. And that is why the 
CSIS recommendations are focused so much on the elements of 
deterrence. What does it take to achieve that?
    On your idea of essentially going on offense in some 
respects, the step that I think would be the most offensive in 
that, if I can use that analogy, to the Russians would really 
be for our European allies to significantly up their investment 
in defense, because I think that has direct implications for 
this scenario, but it has implications for the Russians across 
the board.
    And as the chairman mentioned in some of his opening 
comments, actually, you know, the combined economies, and to 
some extent the combined forces, even though we wish our 
European allies had larger militaries, but their combined 
militaries and their combined economic efforts are very 
threatening to the Russians if they are unified.
    Mr. Brooks. One of the reasons I mentioned the Ukraine and 
Crimea is because, hopefully, we learn from history. Certainly, 
our military assistance with weaponry had a major effect in 
Afghanistan, with Afghanistan becoming free of the Russians on 
the one hand, and ultimately the Soviet Union collapsing on the 
other.
    Thank you for the additional time, Mr. Chairman.
    Mr. Turner. Gentlemen, I want to thank you for your 
expertise. Thank you for the perspective you have given to us 
today. Thank you for both CSIS and RAND and the work that you 
do.
    And I want to ask you if you have any additional 
information or items that you want to highlight before we 
conclude the hearing. We are done with our questions, but if 
you have anything else you would like to add, we certainly are 
willing to recognize you.
    Mr. Bonds. Thank you, Mr. Chairman. Thank you, members. 
Thank you, Ranking Member Tsongas. This has been really a 
terrific opportunity to talk more about our work.
    There is one thing I would say. We focused a lot on the 
Baltics here. There is another step to our work. When we 
consider total Army capabilities, total Army capacity, it needs 
to be for the range of threats that are faced.
    We are about to embark on running an extensive series of 
war games, four different war games looking at the Korean 
weapons of mass destruction threat, what the U.S. might at some 
point determine it needs to do about that, what the response 
from North Korea might be, and what might happen if, either as 
a result of war, social pressures, economic pressures, or 
political pressures, if North Korea collapses.
    At that point, you have between 50 and 75 nuclear weapons, 
we estimate by 2020, that might be used or might be lost. And 
so we are running a series of war games that will look at those 
additional things. And we will have to consider, in addition to 
things we have talked about [with] reference to the Baltics, 
what you would need in those other contingencies. Thank you, 
sir.
    Mr. Turner. Are you assuming that there is not a China 
response that would inhibit our response to North Korea?
    Mr. Bonds. So that is a great question. We actually think 
there will be a China response. We think it can actually be a 
productive one, if it is something that is worked on in 
advance. The question will be, how far south do they come? How 
completely do they secure the nuclear weapon sites that they 
come across?
    You want to make sure that they are diligent about securing 
them from theft and proliferation, but also how do we at least 
deconflict with them and perhaps cooperate with them so that it 
is really a combined approach to dealing with the problem.
    Mr. Turner. Mr. Hunter.
    Mr. Hunter. Thank you for the opportunity to add on, 
because I really wanted to get to a larger point about Army 
modernization in general. I think what today's hearing and what 
this situation and NATO's eastern flank highlights is the fact 
that we don't have a tremendous amount of time to wait around 
for the next great Army to show up in 10 to 15 to 20 years.
    You know, that is an arguable point. There are some who 
say, you know, the technologies that are available in the near 
term aren't attractive enough, aren't compelling enough to 
induce us to want to make a major investment.
    But my view is that you have got real threats and 
challenges in the near term that you are going to need to 
address. And since you don't have 10 to 15 years to wait to 
deal with those problems, you have to adopt a modernization 
strategy that you can implement and start to iterate 
improvements across the Army's force relatively quickly. And 
that is what leads me in our study, which will be coming out 
soon, to a strategy that looks at making more of these 
incremental improvements and iterating them across the force 
very rapidly.
    Now, of course, the key part is it is going to take more 
funding to do that, as I outlined in my opening statement and 
in my written testimony. And when you see that, for example, 
today, you know, the Army's plan is to field the next increment 
of WIN-T [Project Manager Warfighter Information Network-
Tactical] over a 40-year time period before they finish 
fielding it to the entire Army, that's not rapid. I don't think 
that is going to get the job done.
    To be fair to the Army, they are put in a really no-win 
situation with the Budget Control Act caps and the drawdown 
that happened. I think they did a relatively good job of 
protecting the vital capabilities of the Army in a cut drill. 
But we are in a different situation now. And so we have an 
opportunity to come up with a strategy that is focused on 
meeting these new challenges, not simply trying to avoid more 
harm.
    Mr. Turner. Mr. Shlapak.
    Mr. Shlapak. I would like to vehemently agree with Mr. 
Hunter. This is all about deterrence. To fight Russia and win 
would be a strategic failure of the first magnitude. And so the 
question is to think about what really are the requirements of 
deterrence.
    So Mr. Brooks mentioned learning from history. 
Historically, I think we know that countries and particularly 
great powers start wars for two reasons. They start them 
because they have to or they think they have to. Japan in 1941 
felt itself cornered, saw a menu of bad options, thought the 
best of the bad options was to attack the United States in hope 
that it would knock us far enough back that it could 
consolidate its position and then negotiate from a position of 
strength.
    They also start wars because they see opportunities, 
because they see opportunities to achieve important strategic 
goals rapidly, at minimum risk, at low cost. These are the wars 
that are going to be over by Christmas, the wars that you send 
your soldiers off to with flowers and marching bands. Now, they 
are almost always wrong, but that doesn't mean they don't do 
it.
    Right now, when Mr. Putin looks across his border at the 
Baltic States, he potentially sees the opportunity to launch--
to impose a crushing strategic defeat on what he identifies as 
the number one threat to the Russian Federation, which is NATO, 
rapidly, at minimal risk, and at low cost.
    The challenge to NATO is to change that picture, to make it 
look like a different fight, to make it look like a high-risk, 
high-cost war with the most advanced, most powerful, richest 
alliance that the world has ever seen. That is what our work is 
designed to do. That is what the force we recommend is designed 
to create, that level of deterrent. That is what this is about. 
Thank you for your time.
    Mr. Turner. I appreciate your comments. And one aspect of 
deterrence is leadership, and that aspect of leadership is 
resolve. And I think certainly a calculus that we have to 
include in all that is an understanding that when the Russian 
leadership looks out, that they see leadership looking back.
    That is something that we need, regardless of technology, 
capability, or deployment. And I know it is certainly part of 
the debate we are having now, and you are contributing to it.
    So thank you so much for that. And with that, we will 
conclude.
    [Whereupon, at 5:05 p.m., the subcommittee was adjourned.]

    
=======================================================================

                            A P P E N D I X

                             March 1, 2017

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 1, 2017

=======================================================================

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]  
   
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 1, 2017

=======================================================================

      

                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. These wargaming projections indicate NATO's current 
structure would fail to repel a Russian force invasion of its bordering 
Baltic neighbors. I greatly appreciate the various recommendations that 
were made as a result of this wargaming, and I would like to hear your 
thoughts on how we can best supplement any immediate gaps in force 
structure with advanced technologies, such as unmanned aerial vehicles 
(UAVs), electronic warfare, or cyber tactics, for example. Do you see 
viable opportunities there to tip the balance in our favor?
    Mr. Shlapak and Mr. Bonds. Advanced technologies, such as UAVs, 
electronic warfare, and cyber tactics, cannot by themselves ``tip the 
balance in our favor'' or serve as a substitute for capable ground 
forces to prevent a rapid Russian fait accompli in the Baltics. But 
Army modernization is necessary to counter Russian advantages in air 
defense, long-range fires, attack aviation, antitank munitions, and 
cyber-electromagnetic capabilities, so that ground forces can 
successfully fight outnumbered and win with reduced casualties.
    There is not enough time and space for stand-off strikes in support 
of a limited ground force to succeed in preventing a rapid fait 
accompli. It is only 135 miles from Pskov to Riga. Moving tactically at 
5 miles per hour, the Russians can still overrun Baltic defense forces 
and isolate their capitals in less than 60 hours. Russian air defenses 
and fighters, available bases, realistic sortie rates, and legacy 
munitions reduce the effectiveness of NATO airpower in the opening 
weeks of a conflict.
    Third offset technologies will likely not solve this fundamental 
time-distance problem, although some could enable a joint force to 
execute a more realistic ``multidomain battle'' concept. The Army 
modernization priorities necessary to close critical capability gaps, 
retain freedom of action in contested environments, and succeed in 
close combat include:
    1. fires: improve target acquisition sensors and the range, volume, 
and area effects of Army fires to destroy mobile radars, missile 
launchers, armored forces, and command posts
    2. protection: improve mobile, light-armored short-range air 
defense to defeat enemy fighters, attack helicopters, and unmanned 
aerial systems so ground forces can move to and win the close fight
    3. maneuver: improve M1/M2 armored protection, aircraft 
survivability (radar surface-to-air warning), and lethality (extended-
range Hellfire), as well as dismounted firepower (better, faster 
Javelin) to destroy enemy forces in close combat
    4. command: improve C4ISR system integration, resilience, and 
interoperability with allies; assured precision navigation and timing; 
and offensive and defensive cyber-electromagnetic warfare capabilities 
to exercise effective mission command
    5. mobility: improve the weight capability of armored vehicle-
launched bridges to support a rapid counterattack in Baltic terrain 
with multiple rivers.
    Mr. Langevin. It is no secret that over the past decade, the 
Russian government has conducted increasingly frequent and egregious 
cyberattacks against NATO countries. As such, cyber defense has become 
an integral part of NATO's fundamental mission of collective defense. 
Do you believe NATO is at a maturity level to effectively incorporate 
cyber technologies into strategies or doctrine to exploit Russian 
critical infrastructure? And how can we better leverage U.S. resources 
to broaden NATO cybersecurity capacity, take preventative measures and 
enhance information sharing?
    Mr. Shlapak and Mr. Bonds. Though RAND has extensive analytic 
capability in cyberwarfare, RAND has not yet been asked to assess 
NATO's ability to effectively incorporate cyber technologies into 
strategies or doctrine to exploit Russian critical infrastructure. 
However, we can offer some broad observations. Progress on 
cybersecurity, as articulated in NATO's Cyber Defence Policy, includes 
the following.
    <bullet>  At the 2016 NATO Summit in Warsaw, the allies 
``recognized cyberspace as an operational domain in which NATO must 
defend itself as effectively as it does in the air, on land and at 
sea.''
    <bullet>  The allies made a ``Cyber Defence Pledge'' to prioritize 
their cyber defense capabilties and protect their national networks.
    <bullet>  The allies committed to mutual assistance in preventing, 
mitigating, and recovering from cyber attacks and conducting cyber 
education, training, and exercises.
    However, significant challenges remain before NATO has an effective 
offensive cyber capability.
    <bullet>  Some NATO member states are developing their own 
offensive cyber capabilities, but these remain national capabilities 
under national control.
    <bullet>  It is unclear how and under what circumstances member 
states would choose to make their cyber capabilities available to the 
NATO alliance and NATO commands.
    The U.S. is positioned to lead NATO to achieve cyber goals.
    <bullet>  NATO should develop the ability to plan, coordinate, 
command, and control the offensive cyber capabilities of member states. 
This is still nascent within NATO.
    Given that NATO planning, as well as command and control 
mechanisms, generally mirror those developed by the United States, we 
expect that Department of Defense (DOD) mechanisms will serve as a 
template for NATO.
    Mr. Langevin. These wargaming projections indicate NATO's current 
structure would fail to repel a Russian force invasion of its bordering 
Baltic neighbors. I greatly appreciate the various recommendations that 
were made as a result of this wargaming, and I would like to hear your 
thoughts on how we can best supplement any immediate gaps in force 
structure with advanced technologies, such as unmanned aerial vehicles 
(UAVs), electronic warfare, or cyber tactics, for example. Do you see 
viable opportunities there to tip the balance in our favor?
    Mr. Hunter. Advanced technologies such as UAVs and EW can serve as 
important force multipliers that improve the effectiveness of current 
U.S.-European force posture but are by themselves insufficient in 
tipping the balance. Though these investments would improve the 
capability of NATO's current force structure, they would not solve the 
fundamental imbalance of forces. As structured in the wargame, the 
limited number of NATO forces stationed in the Baltics cannot deter a 
Russian invasion, as they do not pose a credible threat of failure to 
Russian leadership. Going against a quantitatively superior Russian 
force, the NATO defenders would be quickly overwhelmed. Incorporating 
advanced technologies can slow down the Russian invasion envisioned in 
the wargame results but must be supplemented by an increased flow of 
additional allied forces into the Baltic states. In turn, this would 
increase the time, cost, and complexity of a Russian invasion and 
reduce or eliminate the perceived advantage Russia might gain from such 
an operation. This requires a combination of increased allied forces 
that are in or realistically transportable to the Baltics and the 
advanced ability of these forces to address evolving Russian threats.
    Although advanced technologies alone cannot tip the balance, that 
does not lessen the importance of investing in these technologies. 
These technologies should be incorporated with force structure 
increases to tip the European deterrence balance. The historical 
example of the Second Offset Strategy demonstrates the success of such 
an approach. The technologies developed during the Second Offset 
Strategy--precision-guided munitions, stealth, communication, command, 
control and intelligence (C3I)--permitted the U.S. to deter Soviet 
aggression without the need for massive, unsupportable European force 
structure requirements. Today, advanced technologies offer the same 
potential to supplement smaller allied force sizes as one element of a 
broader plan to restructure U.S. and NATO force structure to sustain a 
credible conventional deterrence posture.
    Mr. Langevin. It is no secret that over the past decade, the 
Russian government has conducted increasingly frequent and egregious 
cyberattacks against NATO countries. As such, cyber defense has become 
an integral part of NATO's fundamental mission of collective defense. 
Do you believe NATO is at a maturity level to effectively incorporate 
cyber technologies into strategies or doctrine to exploit Russian 
critical infrastructure? And how can we better leverage U.S. resources 
to broaden NATO cybersecurity capacity, take preventative measures and 
enhance information sharing?
    Mr. Hunter. It is my belief that, collectively, NATO is not yet at 
a maturity level sufficient to effectively incorporate cyber 
technologies that exploit critical Russian infrastructure. In this 
area, the technology available is fairly advanced, but the concept of 
operations and doctrine for its use is extremely underdeveloped. This 
is true here in the United States and even more so at the NATO alliance 
level. Classification of the technology involved is a significant 
barrier to developing an integrated alliance approach.
    The challenges NATO faces in broadening its cyber security capacity 
mirror the difficulties the U.S. military faces today in improving 
cyber security. First, the United States and NATO need to better 
leverage the cybersecurity expertise found in the private sector. In 
the United States, this entails finding ways to recruit and retain 
cyber experts outside of the traditional military career structure and 
was a top focus of Secretary Carter's Force of the Future Initiative. 
NATO countries will similarly need to find ways to ensure that their 
militaries leverage and enable those with the requisite cyber skills to 
join the military. Additionally, the U.S. and NATO need to further a 
common understanding of the cyber field. NATO's July 2016 recognition 
of cyberspace as a domain of operations was a good start, but further 
work is needed in reaching a common understanding of what cyber entails 
and best practices for preventative measuring and enhancing information 
sharing.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MS. ROSEN
    Ms. Rosen. This war game was designed to help assess the viability 
of NATO's current posture, and in turn U.S. conventional military 
posture in Europe. How has U.S. military posture in Europe improved 
since the release of RAND's wargame report? In your opinion, are we 
doing enough to maintain a credible deterrence posture?
    Mr. Shlapak and Mr. Bonds. The increase in the U.S. European 
Reassurance Initiative and the matching contributions by NATO allies 
are important first steps that signal alliance cohesion and commitment 
to the Baltic states. Yet they remain insufficient to prevent a rapid 
Russian fait accompli, which arguably should be the standard for 
credible deterrence given the enormous costs and risks of 
miscalculation, war, and escalation with Russia.
    The increase in the U.S. European Reassurance Initiative provided 
for one rotational armored brigade, which is being spread across 
Eastern Europe from the Baltics to Bulgaria. There are U.S. plans to 
establish a prepositioned equipment set for a second armored brigade, 
although it would not be possible to draw equipment and fight on seven 
to ten days' warning. The Europeans are providing three battalion-size 
battlegroups in each of the Baltic States led by Britain, Canada, and 
Germany. RAND war games have shown these forces remain insufficient to 
prevent a rapid Russian fait accompli if deterrence fails.
    The problem with relying on a tripwire is that Putin may doubt 
NATO's will to follow through with a delayed counteroffensive to 
liberate the Baltic states. A counteroffensive would be expensive, 
requiring six months to generate nine times more force to attack at a 
3:1 ratio than to defend at a 1:3 ratio. NATO would likely suffer more 
casualties in the first week of combat with Russia than during the last 
decade in Afghanistan and Iraq. Russia could retaliate by striking 
critical infrastructure in Western Europe and the United States with 
conventional cruise missiles. Moscow would also likely threaten and 
possibly demonstrate use of nuclear weapons to deter a NATO 
counteroffensive. Would Western policymakers really be willing to risk 
their capitals for Tallinn, Riga, and Vilnius? Putin may believe he can 
engage in brinksmanship to shift NATO's response to economic sanctions.
    To avoid a rapid defeat, RAND war games suggest the U.S. should 
station a corps headquarters and a full modular armored division with 
three armored brigades and supporting enablers in Europe to defend the 
Baltics on short warning. Reducing the Russian advantage in tanks to 
2.4:1, this force, along with the three NATO battlegroups, three 
infantry brigades, and one Stryker brigade, could hold the Baltic 
capitals for two to four weeks with prepositioned stocks of fuel and 
ammunition. Another nine to 12 NATO armored brigades would need to 
counterattack rapidly to establish a sustainable defense. These forces 
largely exist; they are just not ready, not in the right place, and 
lack infrastructure to move quickly.
    Ms. Rosen. What specific Russian capabilities, which have been 
demonstrated to date, pose the highest risk to U.S. ground forces? In 
your opinion, what modernization capability gaps do we need to focus on 
in the near term to help mitigate these capabilities and/or threats?
    Mr. Shlapak and Mr. Bonds. The most lethal Russian capabilities 
that pose direct risk to U.S. ground forces include BM-30 and BM-21 
rocket artillery; T-14, T-90, and T-72B3 tanks; AT-14 antitank guided 
missiles (ATGMs); Su-34 and Su-25 attack aircraft; Hind attack 
helicopters; Iskander missiles; and cyber-electromagnetic warfare 
capabilities. Additionally, Russian SA-21, SA-15, and SA-22 air defense 
systems and fighter aircraft present indirect risk by limiting the 
defensive counterair, air interdiction, and close air support for 
ground forces provided by NATO airpower. Army modernization should 
address critical capability to suppress Russian air defenses, counter 
long-range fires, defend against low-altitude attacks by aircraft and 
attack helicopters, survive ATGMs, conduct cyber-electromagnetic 
warfare, maintain interoperable command systems with NATO allies, and 
bridge rivers with heavy armor.
    Russia has steadily modernized its forces to negate U.S. airpower 
and dominate its neighbors. Russia has developed a two-tier air defense 
system with a stand-off advantage that presents a lethal threat to 
NATO's fourth-generation aircraft. Assuming a 33-percent readiness rate 
in the Western Military District, Russia could still generate 27 
battalion tactical groups or nine brigade equivalents with seven days' 
warning, achieving a 6:1 advantage in modern main battle tanks versus 
NATO's current posture in RAND war games. At a 66-percent readiness 
rate, Russia could generate up to 60 battalions or 20 brigade 
equivalents with ten days' warning, achieving a 4.5:1 advantage in 
tanks versus NATO's enhanced forward presence. NATO's artillery would 
be outnumbered, outranged, and outgunned by Russian artillery. Emerging 
insights from RAND's analysis of Army capability gaps and modernization 
priorities observe that Russia's ATGMs can destroy M1A2 tanks, while 
the active protection system on Russian armor can defeat Javelin 
antitank munitions. Russia could surge close air support and attack 
helicopters in low-altitude attacks to destroy U.S. armor, which lack 
short-range air defense. Russia's cyber and electronic warfare attacks 
present new challenges with potentially crippling effects. 
Collectively, this is a prime example of losing ``overmatch.''
    In contrast, the United States has not sized, postured, modernized, 
and resourced the armed forces to deter Russia since 1992. In 
particular, the DOD has for 25 years built the Army to defeat third-
world powers and insurgents, not a peer competitor. Army modernization 
programs have been repeatedly cancelled and cut during this time. 
Fixing forward posture is a necessary but not sufficient condition to 
prevent a rapid fait accompli. Army modernization is necessary to close 
the critical capability gaps outlined above in order to succeed in 
decisive close combat.
    Ms. Rosen. Rotating forces over time seems to be a costly 
undertaking. After how many 9-month armored brigade combat team (ABCT) 
rotations does it become more cost effective to permanently base an 
ABCT in Europe?
    Mr. Bonds. RAND has the analytic capability but has not yet been 
asked to complete a detailed cost analysis of the range of 
possibilities about how and where units would be based, operated, and 
supported under permanent stationing or rotational presence over time. 
Nor has RAND completed an analysis of different posture locations, 
methods, and force levels to determine their respective strategic and 
operational advantages, disadvantages, costs, and risks.
    However, we offer the following operational and force sufficiency 
considerations.
    <bullet>  Rotating an armored brigade with its equipment to Europe 
provides the most ready unit forward and improves power projection 
skills in Europe.
    <bullet>  However, it requires all nine current armored brigades in 
the active component to meet three rotational requirements for 
deterrence in Europe, Korea, and Kuwait at a 1:2 ratio.
    <bullet>  The Army currently does not have enough capacity to 
maintain three rotational armored brigades in Europe to deter Russia 
while meeting its other two requirements in Korea and Kuwait.
    <bullet>  Even accounting for the two additional armored brigades 
that the Army plans to build plus the five armored brigades in the 
National Guard, the Army will not have enough capacity to maintain five 
rotational requirements.
    <bullet>  Given the enormous costs of miscalculation, war, and 
escalation with Russia, the Army, DOD, and Congress should consider 
growing three new armored brigades and stationing them in Europe to 
provide a minimum credible deterrent, reduce rotational turbulence, and 
sustain unit readiness in the United States.
    We also offer the following considerations on different types of 
costs.
    <bullet>  Some recurring costs are higher for permanently 
stationing forces overseas, including housing, dependent education, and 
cost of living adjustments.
    <bullet>  Other categories of recurring costs can be higher for 
rotating forces to meet overseas missions, such as transportation costs 
for unit deployment and return.
    <bullet>  Some categories of recurring costs are challenging to 
estimate without a detailed understanding of where and how units will 
be stationed, operated, and supported.
    <bullet>  In addition to recurring costs, there may also be one-
time costs for either permanent stationing (e.g., military 
construction) or rotation (e.g., equipment sets).
    <bullet>  Host nation support may offset some or all of the 
additional costs discussed here, such as soldier/unit support, base 
operations, and military construction.
    Ms. Rosen. This war game was designed to help assess the viability 
of NATO's current posture, and in turn U.S. conventional military 
posture in Europe. How has U.S. military posture in Europe improved 
since the release of RAND's wargame report? In your opinion, are we 
doing enough to maintain a credible deterrence posture?
    Mr. Hunter. Though the U.S. has improved its conventional military 
presence in Europe, further improvements are needed to maintain a 
credible deterrence in posture. A recent CSIS report, Evaluating U.S. 
Army Force Posture in Europe: Phase II Report, recommended the 
following improvements to U.S. European force posture as means to 
maintain a credible conventional deterrence posture:
    <bullet>  ``An armored brigade combat team and a full-strength 
combat aviation brigade should be permanently assigned to Europe.''
    <bullet>  ``The U.S. based rotational force should be transitioned 
from an armored brigade to an infantry brigade and possibly provided 
with pre-positioned equipment in the east for training and exercises.''
    <bullet>  ``The U.S. rotational troop presence in each Baltic State 
should be expanded from a company to a battalion.''
    <bullet>  ``Equipment should be pre-positioned in Western Europe 
for four U.S.-based brigades (two ABCTSs, one fires brigades, and one 
sustainment brigade) to enable rapid surge capacity in a crisis.''
    <bullet>  ``Increased U.S. force posture and defensed investments 
in Europe must be nested in a whole-of-government approach and 
accompanied by significant increases in defense spending and 
contributions from NATO allies.''
    Ms. Rosen. Rotating forces over time seems to be a costly 
undertaking. After how many 9-month armored brigade combat team (ABCT) 
rotations does it become more cost effective to permanently base an 
ABCT in Europe?
    Mr. Hunter. In evaluating U.S. Army Force Posture in Europe: Phase 
II Report, the CSIS authors recommend permanently stationing a third 
ABCT in Europe ``in order to improve deterrence, sustainability, and 
likely long-term cost effectiveness.'' In conducting that study, the 
CSIS study team found that determining when it becomes more cost 
effective to permanently station an ABCT in Europe is difficult to 
determine, as it depends on several factors, such as permanent basing 
location, burden-sharing agreements, length of rotations, etc. The 
study team further concluded that it is likely to be cheaper to 
permanently station an ABCT in Europe than to continuously rotationally 
deploy forces through Europe over the long term. This finding is 
supported by the historical example of the Army's increased size and 
equipment requirements of the heel-to-toe ABCT deployments in the 
1970s. During this time, the Army briefly experimented with rotational 
deployments to bolster its European presence before electing to 
permanently station these forces due to cost-considerations. 
Additionally, the increased size of the rotational forces and decision 
to not use prepositioned equipment will drive the cost of rotating 
forces higher than the $637 million/year listed in the President's FY17 
budget request.
    In making the decision whether to permanently station an ABCT in 
Europe, there are several important questions Congress needs to 
resolve: How long will the U.S. maintain this increased presence in 
Europe? Where would an ABCT be permanently stationed in Europe? Before 
deciding to permanently station a third ABCT in Europe, decision makers 
need to identify how long the U.S. might expect to maintain this 
increased force posture. Permanently stationing forces in Europe 
requires a substantial upfront MILCON investment in the form of new 
bases/expansion of old bases coupled with the cost of construction for 
new housing, installations, schooling, etc. for families. If the U.S. 
expects to only maintain an increased European force presence for a few 
years, the Army will not achieve savings from permanently stationing 
forces as opposed to continuously rotating forces through Europe. The 
second question that must be answered by Congress is the following: 
where would an ABCT be permanently stationed in Europe? While it's 
preferable to permanently station an ABCT closer to the NATO's Eastern 
borders, cost considerations and logistics dictate that it is more 
likely that an ABCT would be permanently stationed somewhere in 
Germany. Compared to other locations, stationing an ABCT in Germany 
would likely lead to a smaller upfront reduce a smaller upfront MILCON 
investment at the expense of reaching the frontlines slower.
    Ms. Rosen. What specific Russian capabilities, which have been 
demonstrated to date, pose the highest risk to U.S. ground forces? In 
your opinion, what modernization capability gaps do we need to focus on 
in the near term to help mitigate these capabilities and/or threats?
    Mr. Hunter. Multiple CSIS studies have found that Russian anti-
access/area denial (A2/AD), ground combat, and non-kinetic capabilities 
present the greatest pacing threat for the United States Army. The 
Russian A2/AD concept of operations is a sophisticated, layered, 
redundant, multi-domain network that hinders the U.S. ability to 
project power in Europe and presents challenges to certain fundamental 
assumptions about the Army and its role in the joint force. Comparing 
ground combat capabilities, the U.S. retains a diminished lead in 
combat vehicles, while the Russians have surpassed the U.S. in indirect 
fires capabilities. Finally, Russian non-kinetic capabilities, 
particularly in EW and cyber operations, significantly out-pace the 
limited capabilities the U.S. Army could currently bring to a future 
conflict.
    Given the Russian challenges, in a forthcoming CSIS report, The 
Army Modernization Imperative: A New Big Five for the Twenty-First 
Century, the CSIS authors recommend that the Army prioritize five 
capabilities: Electronic Warfare, Air and Missile Defense, Cross-Domain 
Fires, Advanced Protection, and Logistics. Given funding limitations, 
these five cross-cutting capabilities offer the greatest return on 
investment for the Army. In Electronic Warfare, the Army portfolio is 
``empty'' after neglect since the end of the Cold War and requires 
substantial investment in both offensive and defensive capabilities. 
Short Range Air Defense capabilities should be a top priority in Air 
and Missile Defense, accompanied by incremental upgrades to PATRIOT. 
Given trends in the future operational environment, the Army needs to 
increase investments in fire systems that enable greater effectiveness 
and range across multiple domains to include cyber and space. In 
Advanced Protection, active protection systems are necessary given the 
proliferation of advanced munitions. Finally, commercial advancements 
can be harvested for military logistics to improve military 
effectiveness and negate future operational limitations.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
